The Department of Justice (DOJ) Office of the Inspector General (OIG) today released a report
examining the Federal Bureau of Investigation’s (FBI) Foreign Terrorist Tracking Task
Force (FTTTF). The OIG’s audit found that the FTTTF provides significant value to the FBI by
proactively identifying national security threats. However, the audit found issues regarding the
level of coordination prior to fiscal year 2011 between the FTTTF and FBI operational divisions,
the nature of some of the information provided to field offices and the awareness of the
FTTTF’s capabilities in those offices, and the FTTTF’s compliance with DOJ requirements
relating to privacy laws.

The FTTTF conducts in-depth analyses using government and public source datasets to identify
and track terrorist and national security threats and provides intelligence on these threats to
FBI field offices, headquarters sections, and intelligence community partners. The OIG’s audit
determined that prior to fiscal year 2011 limited coordination existed between the FTTTF and
the FBI’s National Security Branch operational divisions, such as the Counterterrorism Division
and the Counterintelligence Division. However, we found that the FTTTF improved its
coordination during our audit, particularly through the assignment of FTTTF personnel to the
Counterterrorism Division that has enabled the FTTTF to obtain the latest information on
emerging threats and to become aware of gaps in FBI intelligence collection and make
suggestions as to how the FTTTF can help address them.

We also found that the FTTTF did not always provide FBI field offices with timely, relevant, and
valuable information, and that many field office Special Agents and Intelligence Analysts were
not fully aware of the FTTTF’s capabilities. Without such an understanding, FBI field personnel
may not use the FTTTF’s valuable analytical capabilities to the fullest extent possible to best
further the FBI’s national security mission.

Additionally, the audit found that, while the FTTTF has implemented many privacy-related
policies and procedures to ensure it meets DOJ’s requirements for handling national security
information and other sensitive information used in its operations, the FTTTF had not
completely satisfied DOJ’s requirements relating to the transparency of its information systems
under the Privacy Act and E-Government Act between 2008 and 2012 by not submitting an
updated System of Records Notice or Privacy Impact Assessment to the DOJ Office of Privacy
and Civil Liberties. During our review, the FBI submitted a System of Records Notice, which
received final approval in July 2012.

The OIG made 7 recommendations to the FBI to improve the FTTTF’s operations, and the FBI
agreed with all 7 recommendations.

The report can be found on the OIG’s website at:
http://www.justice.gov/oig/reports/2013/a1318r.pdf.
